                                             UNCLASSIFIED




                         UNITED STATES DEPARTMENT OF STATE
                     AND THE BROADCASTING BOARD OF GOVERNORS

                                  OFFICE OF INSPECTOR GENERAL

ISP-J-13-23                                 Office of Inspections                                  March 2013


MEMORANDUM
TO :                   OS - Gregory B. Starr, Acting
                       OBO - Lydia 1. Muniz                      ()
FROM:                  OIG - Harold W. Geisel        ~>7

SUBJECT:               Review of Department of State Implementation of Jeddah Accountability
                       Review Board of Recommendation to Consider Remote Safe Areas at
                       Missions Worldwide
Summary

The Office ofInspector General (OIG) conducted a review of the Department of State ' s
(Department) worldwide compliance with the 2005 Jeddah Accountability Review Board (ARB)
recommendation to consider remote safe areas' at compounds where employees outside office
buildings can seek immediate refuge during an armed attack. The Department concurred with the
recommendation, stating that over the short term, posts with critical and high terrorism threat
levels would be the first priority for safe area construction projects. Over the long tenn, the
Department proposed that the Overseas Security Policy Board (OSPB) address compound safe
areas as a fonnal security standard.



I Safe area: A designated area within a building that serves as an emergency sanctuary and provides at least 15-

minute forced-entry and ballistic-resistant (FE/BR) protection, emergency power, ventilation, communications, and
emergency egress (12 FAH-5 H-040 , Glossary).

                                                    Page I of5

                                             UNCLASSIFIED
                                              UNCLASSIFIED

ISP-I-13-23          Review of Department of State Implementation of Jeddah Accountability Review      March 2013
                    Board of Recommendation to Consider Remote Safe Areas at Missions Worldwide


During post management inspections conducted in 2012, OIG found that more than half of the
posts inspected did not provide a safe area for employees working outside the main office
buildings. Inspectors identified 11 posts out of 17 that needed additional safe areas on the
compound, including 4 missions rated high or critical for political violence and/or terrorist threat.
Inspectors also found that new embassy compounds constructed after the leddah attack did not
include remote safe areas. OIG subsequently learned that the Bureau of Overseas Buildings
Operations (OBO) will implement the standards for all new embassy compound projects planned
after FY 2012.

In October 2012, the Department published physical security standards in the Foreign Affairs
Handbook (12 FAH-5 H-460) for remote safe areas, which are referred to as compound
emergency sanctuaries. 2 The Bureau of Diplomatic Security (DS) also drafted an update to the
OSPB standards for compound emergency sanctuaries, in 12 F AH-6 H-520, which is still in the
clearance process.

Scope and Methodology

In the course of inspecting the management of overall security programs at embassies, the OIG
inspections had three complementary goals. First, identify all designated safe areas and safe
havens 3 at each overseas facility. Second, determine whether embassy employees are working on
a full-time basis on the facility compound without reasonable access to a designated safe area.
Third , determine whether designated safe areas provide sufficient protection against intruders.

Security inspectors examined OIG inspection reports issued between 2006 and 2011 to identify
recommendations pertaining to safe areas for employees working on facility compounds but
outside an office building. OIG then created a questionnaire for security inspectors to use during
FY 2012 to ascertain the level of compliance with the leddah ARB. During 2012, security
inspectors visited 17 missions and completed the questionnaires at each post.

The questionnaire addressed only protected areas provided for employees outside the compound
office buildings, as separate OSPB physical security standards already require safe areas for

2 Compound Emergency Sanctuary: A compound emergency sanctuary is a protected building or room , within or
adjacent to an on-compound, unprotected functional area, that is used as a temporary shelter during an attack or
other crisis for personnel unable to reach or find accommodations in a safe haven, safe area, or 15-minute FEfBR-
protected building. It provides 15-minute FEfBR protection for walls, windows, and doors, emergency power,
ventilation, telephone, connectivity to the emergency notification system, and where feasible and reasonable, an
emergency escape. (12 FAH-5 H-040 , Glossary).
3 Sare haven: A designated area within a building that serves as an emergency sanctuary and provides at least 60-
minute FEfBR protection, emergency power, ventilation , communications, and emergency egress . (12 FAH-5 H-
040, Glossary).


                                                     Page 2 of 5

                                              UNCLASSIFIED
                                           UNCLASSIFIED
ISP-I-13-23       Review of Depanment of State Implementation of Jeddah Accountability Review    March 2013
                  Board of Recommendation to Consider Remote Safe Areas at Mission s Worldwide


employees working in an office building. The questionnaire focused on construction of remote
safe areas and on the protection of employees working in similar conditions to those killed in the
leddah attack, such as driver's lounges, motor pools, general services workshops, and on-
compound warehouses. Security inspectors did not look at non-Department agencies or
warehouses located off the embassy compound.

The variety of missions inspected provided a good cross-section for assessing the Department's
compliance with the leddah ARB. The 17 missions inspected covered 4 geographic bureaus.
Seven posts were rated high or critical for terrorist threat and/or political violence. The
compounds varied in size from the standard secure mini-compound in (b)(5)(b)(6)             to
the large embassy compound in  (b)(5)(b)(6) Seven posts were new embassy compounds while some
compounds had buildings hundreds of years old.

Background and Findings

During the December 6,2004 terrorist attack at the u.S. consulate in leddah , gunmen killed four
locally employed staff members and injured nine others working outside the consulate building.
An ARB determined that these employees were killed or injured because the general services
annex building did not have a safe area to which the employees could retreat. The Department
concurred with the ARB recommendation to construct safe areas throughout compounds at posts
worldwide. It planned to address first the most vulnerable posts with critical and high terrorist
threat levels and proposed that the OSPB address compound safe areas as a formal security
standard for all posts.

Beginning in 2006, oro security inspectors started identifying warehouses, general services
annexes, and other buildings on embassy compounds that did not provide protection for
employees working in them. During the following 5 years, 010 security inspectors included
formal and informal recommendations for the construction of remote safe areas on compounds.
These recommendations were included in the classified annexes to 010 inspection reports of 27
posts. When security inspectors noted the frequency with which the recommendation occurred,
010 made remote safe areas the subject of an area of emphasis for FY 2012.

During four inspection cycles in 2012, security inspectors visited 17 missions and made several
significant observations. The inspectors identified 11 missions that did not have remote safe
areas and made formal or informal recommendations to construct compound emergency
sanctuaries on the compounds. Of the remaining six posts, three had sufficient safe areas and
three were small enough that employees could quickly access the chancery safe areas during an
emergency. Security inspectors noted the lack of a compound emergency sanctuary at each of
four missions rated high or critical for terrorist threat or political violence. In addition, none of

                                                   Page 3 of 5

                                           UNCLASSIFIED
                                          UNCLASSIFIED

ISP-I-13-23      Review of Department of State Implementation of Jeddah Accountability Review   March 2013
                 Board of Recommendation to Consider Remote Sate Areas at Missions Worldwide


the regional security officers in the 17 posts could identify a safe area that was constructed as a
result of the leddah ARB.

Recommendation 1: The Bureau of Overseas Buildings Operations, in coordination with the
Bureau of Diplomatic Security, should provide compound emergency sanctuaries for employees
who work in buildings that do not have an approved safe haven or safe area. (Action: OBO, in
coordination with DS)

The Department has made progress on its proposal to address compound emergency sanctuaries
as a formal security standard in both the Department's physical security standards and those
approved by the OSPB, which apply to all agencies under chief of mission authority. In
September 20 II, the Security Standards Committee for OBO and DS signed an action
memorandum, which approved changes to 12 FAH-5, Physical Security Handbook, and 12 FAH-
6, OSPB Security Standards and Policy Handbook.

The Department updated 12 F AH -5 in October 2012 to inc! ude standards for a compound
emergency sanctuary. According to 12 FAH-5 H-460 and Appendix H, a compound emergency
sanctuary will provide 15-minute FE/BR protection like a safe area but does not include some of
the other features of a safe area, such as potable water and sanitary facilities. As stated in the
standard, a compound emergency sanctuary is not a replacement for a safe area but is an area to
protect employees from a terrorist or mob attack that occurs with little or no warning.

DS drafted an update to 12 FAH-6, OSPB Security Standards and Policy Handbook, which
requires a compound emergency sanctuary for on-compound employees, in unprotected
functional areas, that are not within buildings constructed to I 5-minute FE/ BR standards or have
an approved safe haven or safe area. The complete standard, drafted as 12 F AH-6 H-524, is
currently under review within DS and will be presented to the OSPB for approval and inclusion
in 12 FAH-6.

After past terrorist attacks on embassies, Congress allocated funds to the Department to consttuct
new embassies and to upgrade security at existing facilities. OBO obligated approximately $1.2
billion between FY 1999 and FY 2007 for the Compound Security Upgrade Program (CSUP),
"to enhance physical security protection for vulnerable facilities until they are replaced by
improving perimeter security measures and installing [FE/BR] doors and windows, among other
security upgrades." According to a Government Accountability Office report presented to
Congress in 2008, "Completed CSUP projects have achieved their objective of enhancing the
security at posts by bringing posts in better compliance with security standards."



                                                  Page 4 of 5

                                          UNCLASSIFIED
                                          UNCLASSIFIED

ISP-I- I 3-23    Review of Department of State Implementation of leddah Accountability Review   March 2013
                 Board of Recommendation to Consider Remote Safe Areas at Missions Worldwide


The FY 2013 Department budget request to Congress included $688 million for security
upgrades, including $87.7 million for CSUP. According to the budget request, the program funds
comprehensive security upgrades, major FE/BR door and window replacements,
chemical/biological retrofit projects, emergency egress projects, and security upgrades for soft
targets. The budget request does not specifically mention compound emergency sanctuaries as
one of the projects; however, the action memorandum signed in 2011 indentified CSUP as the
source of funding for the estimated $200 million necessary to upgrade 283 compounds. The
memorandum also notes that funding for compound emergency sanctuary upgrades would be
provided in competition with other worldwide priorities.

Funding for CSUP has declined over the past 5 years from a high of $1 08 million in FY 2008 to
the current level of $95 million under the continuing resolution. Adding another $200 million
security program to the CSUP without a corresponding increase in funding will likely result in
many embassies not receiving a compound emergency sanctuary upgrade for many years.

Recommendation 2: The Bureau of Overseas Buildings Operations should request an increase
in funding for the Compound Security Upgrade Program to reflect the additional requirement for
compound emergency sanctuaries. (Action: OBO)

You should advise us on actions taken or planned on the recommendations within 30 days of the
date of this memorandum. Actions taken or planned are subject to OIG followup and reporting. I
would be happy to meet with you to discuss this matter further, or your staff may contact Robert
Peterson, Assistant Inspector General for Inspections, on (b)(2)(b)(6)



Enclosures:

Compliance Sheet
OIG Resolution Procedures




                                                  Page 5 of 5

                                           UNCLASSIFIED
